No. 20-1786

 

IN THE

Supreme Court of the United States

JOANNE TROESCH AND IFEOMA NKEMDI,

Petitioners,
Vv.

CHICAGO TEACHERS UNION, LOCAL UNION No. 1,
AMERICAN FEDERATION OF TEACHERS, and
THE BOARD OF EDUCATION OF THE CITY OF CHICAGO,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

BRIEF OF THE FREEDOM FOUNDATION
AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,966 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 23, 2021.

Colin Casey H¥gan
Wilson-Epes Printing Co., Inc.
